STATEOFNEWYORK
OFFICE OF THE ATTORNEY GENERAL
LETITIA JAMES

BARBARA D. UNDERWOOD

ATTORNEY GENERAL

SOLICITOR GENERAL

November 19, 2020
Hon. Scott S. Harris
Clerk of the Court
c/o Ms. Mara Silver
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543

Re: The Roman Catholic Diocese of Brooklyn, New York v. Cuomo, No. 20A87
Dear Mr. Harris,
I write regarding The Roman Catholic Diocese of Brooklyn, New York's
application for injunctive relief in the above-captioned case.
The Diocese seeks to enjoin, as against its churches, the enforcement of New
York State Executive Order 202.68's limits on the size of gatherings in houses of
worship located in geographic micro-areas designated as "red zones" and "orange
zones" in light of their dangerously high incidence of COVID-19 cases. As noted in
Governor Andrew M. Cuomo's opposition (at pp. 16-18), at the time the Diocese filed
its application, six of its churches were affected by the order-all in a single orange
zone in Brooklyn. After the opposition was filed, the Governor announced that due to
a reduction of cases in the area, this orange zone will be converted to a yellow zone
effective this upcoming Friday, November 20, 2020. Gov. Andrew M. Cuomo,
Governor Cuomo Announces Updated COVID-19 Micro-Cluster Focus Zones (Nov. 18,
2020), https://www.governor.ny.gov/news/governor-cuomo-announces-updated-covid19-micro-cluster-focus-zones-2. Thus, effective tomorrow, none of the Diocese's
churches will be affected by the gathering-size limits it seeks to enjoin.

_g~[).

Respectfully submitted,

BARBARA D. UNDERWOOD
Solicitor General
Counsel for Respondent

28 LlBERTY STREET, NEW YORK, N EW YORK 10005 • PHONE (212) 416-8016 • E-MAILBARBARA.UNDERWOOD@AG.NY.GOV

/&>c,.

cc:

Randy M. Mastro
Gibson, Dunn & Crutcher LLP
200 Park Avenue
New York, New York 10166
Counsel for Applicant

2

